V*

C 20-81790>R'ginal
No.

gmprane Court of tfye ®niteb &tataef
CHAD ALAN SODERMAN,
Petitioner,
vs.
UNITED STATES OFAMERI
Respondent

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

FILED
MAY 1 7 2021
OFFICE OF THE CLERK
SUPREME COURT, lI.S.

MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS
COMES NOW PETITIONER CHAD ALAN SODERMAN and respectfully moves
this Honorable Court for leave to proceed in forma pauperis, in accordance with the provisions of
Title 28, United States Code, Section 1915, and Rule 39 of the Rules of this Court.
The affidavit of Chad Alan Soderman in support of this motion is attached hereto.
Mr. Soderman sought leave to proceed in forma pauperis in the court below.
Mr. Soderman was granted leave to proceed in forma pauperis in the court below.

The statute under which Mr. Soderman was appointed counsel by the Southern District of
Iowa was the Criminal Justice Act of 1964, 18 U. S. C. § 3006A. Therefore, in reliance upon
Supreme Court Rule 39.1 and 18 U.S.C. § 3006A(d)(7), petitioner has not attached the affidavit
which would otherwise be required.**
Presented herewith is Mr. Soderman’s Petition for Writ of Certiorari to the Court of
Appeals for the Eighth Circuit.

Chad Alan Soderman
Petitioner
44905-013
9595 West Quincy Avenue
Littleton, CO 80123
Date:

** Supreme Court Rule 39.1 provides:
A party seeking to proceed in forma pauperis shall file a motion for leave to do so,
together with the party's notarized affidavit or declaration (in compliance with 28 U.S.C.
§ 1746) in the form prescribed by the Federal Rules of Appellate Procedure, Form 4. The
motion shall state whether leave to proceed in forma pauperis was sought in any other
court and, if so, whether leave was granted. If the United States district court or the
United States court of appeals has appointed counsel under the Criminal Justice Act of
1964, 18 U.S.C. § 3006A, or under any other applicable federal statute, no affidavit or
declaration is required, but the motion shall cite the statute under which counsel was
appointed.” Id. (As Amended Jan. 27, 2003, ef£ May 1, 2003.) (emphasis added)
18 U.S.C. § 3006A(d)(7) provides:
(7) Proceedings before appellate courts. If a person for whom counsel is appointed under
this section appeals to an appellate court or petitions for a writ of certiorari, he may do so
without prepayment of fees and costs or security therefor and without filing the affidavit
required by section 1915(a) of title 28. Id (emphasis added)

*v
General Docket
Eighth Circuit Court ofAppeals
Court ofAppeals Docket #: 19-2879
United States v. Chad Soderman
Appeal From: U.S. District Court for the Southern District of Iowa - Council Bluffs
Fee Status: In Forma Pauperis
09/12/2019 CLERK ORDER: Granting [4827948-2] motion for appointment of counsel filed
by Mr. Christopher James Roth. Christopher James Roth for Chad Alan Soderman, in case 192879 was added as appointed counsel [4829655] [19-2879] (RLS) [Entered: 09/12/2019 09:39
AM]

\

